     COOPERATIVE ADMINISTRATIVE

       SUPPORT UNIT PROGRAM


                          TECHNICAL REPORT III

        LOCAL OFFICIAL PERCEPTIONS OF NATIONAL
             POLICIES AND IMPLEMENTATION




      t.llVICE$.
                   CI.r




'0



     lr"cf3a



OFFICE OF INSPECTOR GENERAL
OFFICE OF ANALYSIS AND INSPECTIONS
                                                  JUNE 1989
   COOPERATIVE ADMINISTRATIVE

     SUPPORT UNIT PROGRAM


            TECHNICAL REPORT III

LOCAL OFFICIAL PERCEPTIONS OF NATIONAL POLICIES
              AND IMPLEMENTATION





                RICHARD P. KUSSEROW
                 INSPECTOR GENERAL




OAI-89003                                 JUNE 1989

                                  EXECUTIVE SUMMARY


PURPOSE

The purose of this study was to conduct a qualtative user evaluation of the Cooperative Ad­
miistrative Suppon Unit (CASU) Prgram.

Overal inspection ais were to: 1) conduct a user assessment of CASU servces in operation­
al CASUs; 2) provide the national CASU board with an overview of the CASU Prgram frm
a user or customer perspective; and 3) identify the generic strngths and weakesses that af­
fect the progr s workabilty and success. This repon was prepar at the request of the na­
tional CASU board and sta.

BACKGROUND

The CASU    Progr is a Government-wide progr, sponsored by the President s Council on
Management Improvement (PCMI, which operates under authority of Section 601 of the
Economy Act of 1932. At the national level, the PCMI established a CASU Progr Nation­
al Boar of Directors which sets policy, provides guidance, approves lead agencies and
charrs CASUs. In addition, a national interagency staf was organize to serve as a focal
point for day-to-y operation of the national CASU      Prgr.  The local CASU suppon strc­
tu   includes policy dition frm a tenant board of dictors, and managerial diection from
a lead agency. The day-to- day operations of the local CASU ar supervsed by a local CASU
ditor.
The CASU Progr was established under the concept that local Federa agencies could
cooperatively combine their resoures to shar common administrtive services at reuced
costs and with better service quality. Under the CASU concept, building tenants jointly shar
in establishing and managig an admnistrtive suppon unit that provides, on a reimburable
basis, adnistrtive servces commonly needed by its members.

FINDINGS

LOCAL OFFCIAS GENERALY BELIEVE CASU POLICIES, GUIDELINS AND PRO­
GRAM ASSUMONS ARE SOUND AND WORKBLE

     A slight majority (55 percent) of officials think steady program growth wil   occur under
     volunta pancipation rules (45 percent disagree).
     All   offcials favor maintaning the current strong emphasis on local tenant board contrl.

     A majority of offcials agr with basic CASU chanering policies; however, there is some
     question on whether the national boar and staff enforce these provisions.
  Most offcials (84 percent) think the national board should not promote a consistent
  model in chanering CASUs but allow flexibilty to explore alternatives.

LOCAL OFFCIAS          VIW TI NATIONAL CASU MANAGEMENT STRUCf
GENERALY EFFCTVE, BUT TIY DESIR SOME CHANGES

  Offcials rate the national board as effective. They suggest the board: 1) strngthen the
  sta' s capacity to assist CASUs after chanering, both before and durng operational sta­
  up; and 2) redouble their effort to educate the agencies about the CASU Progr at the
  national level.

  Overa, most       officials assess the leadership provided by the national CASU sta      as   effec­
  tive.

  Offcials suggest national    CASU staf leadership can improve by developing a more
  stable and specializ sta that would focus more effon on operational assistace and l
  on chanerig more       CASUs.

  Offcials prefer the program management strcture to reman flexible, rather than to be­
  come more institutionalizd, as the progr evolves.

  Offcials believe the national board and sta      playa   vital role in progr expansion and in
  how well CASUs will surve or thve.

  The aduacy of national CASU reportng mechanisms should be reassessed.

LOCAL OFFCIAS LIST SEVERA KEYS TO SUCCESSFU CASU IMLEMENTA­
TION. AMONG TI MOST CRICAL FACTORS ARE:

   Selecting very carfully the personnel to    fill top leadership positions.

   Developing open and fruent       communications    with national sta    and potential users.


   Securg the commtment and suppon of national parnt           agencies of      the lead agency and
   potenti users.
   Conductig thorough ,     realistic feasibilty studies before stan up.

OVERA, LOAL OFFCIAS SEE TH CASU               PROGRAM AS SUCCESSFU,
DESPIT ITS NUROUS              IMLEMENTATION ISSUES

   Offcials ar   somewhat uncenain about the curent implementation pace and goals            of the
   CASU Progr.


   Ofcials say   the progr is successful and has significant cost savings potential.
    Offcials think moderate to major cost   savings wil be   realzed by local CASUs and the
    tota program over the next 2 years.

    However, few offcials (17 percent) view savings   in excess of $1 () milion by the end
    Fiscal Year 1992 as realistic.

RECOMMENDATIONS

Assistance in Achieving Operatonal    Stats

The national CASU board should:

1. Encourge the National sta to provide more assistace to CASUs in achievig operational
  status and in solvig   implementation problems.


2. Incrase its maretig and educational effons at the national level durg this crcial transi­
   tion period.

Technical ASfl;dnrtce Guides

The national CASU sta should begi developing generic tehnical assistance guides to aid
CASUs in achievig operational status. They should also develop "How To " guidelies on im­
plementing the most common CASU core servces.

Natonal CASU Reportng Mechanisms


The national CASU board and sta should re-examne and revise as necessar the Prgram
Activity Repon content and schedule. They should also correct any implementation bugs in
CASULIN and promote its effective usage by CASU offcials.

Selection Criteri   and Guidelines


The national CASU sta should develop crteria and guidelines to assist local tenant boards
and lead agencies in selecting personnel or organizations to fill key CASU positions and roles.

COMMENTS ON THE DRAFT REPORT

We shar the draf of this report and the supportg      technical report, with the   CASU Pro­
gram National Boar of Dirctors and the CASU national staff. They generaly agree with the
repon fmdigs and concur, with only minor qualifcations, with all our recommendations.
fhe full text of their comments is included in the appendix of the Executive Repon.
.......                                          .........................
                    . .............................                     ...... ....
                                                                                 . ... .. ... ... ... ........... ... ... ... .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. .




                                                                         TABLE OF CONTENTS

 EXECUTIVE SUMMARY
 INTRODUCTION
 PURPOSE
 BACKGROUND                                                                                                                           .........................1
 METHODOLOGY. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
 FINDINGS.                                                                                                                .............................3
             CASU POLICIES, GUIDELINES AND PROGRAM ASSUMPTIONS ARE
             SOUND AND WORKABLE                                  ..........3
                            All loal officials favor maintaining strong loal                                                               tenant board control                                ......3
                            Most local officials agree with the basic policies governing CASU char­
                            tering policies                                                                                                                            ..............4
             LOCAL OFFICIALS VIEW THE NATIONAL CASU MANAGEMENT
             STRUCTURE AS GENERALLY EFFECTIVE , BUT THEY DESIRE SOME
             CHANGES. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5
                            Oficials rate the national                                   CASU board as effective . . . . . . . . . . . . . . . . . . . 5
                            Most assess CASU staff leadership as effective . . . . . . . . . . . . . . . . . . . . . 6
                            Oficials prefer a flexible CASU management structure. . . . . . . . . . . . . . . . 7
                            CASU reporting mechanisms should be reassessed. . . . . . . . . . . . . . . . . . 8
             CASUs FACE MANY PROBLEMS AND PITFALLS DURING DEVELOPMENT. . . .
             LOCAL OFFICIALS LIST SEVERAL KEYS TO SUCCESSFUL CASU
             IMPLEMENTATION                                    . . . . . . . . . . . . . . 10
                            Selecting carefully the personnel for leadership positions . . . . . . . . . . . . . 10
                             Developing open and frequent cvmmunications . . . . . . . . . . . . . . . . . . . . . 1


                            Securing parent agency commitment and support. . . .
                             Conducting thorough feasibility studies
             OVERALL, LOCAL OFFICIALS SEE THE CASU PROGRAM AS
             SUCCESSFUL DESPITE ITS NUMEROUS IMPLEMENTATION ISSUES. . . . . . .
                             There is uncertainty about the pace of implementation and CASU
                             program goals. . . . . . . .
                             Overall , officials say the program is successful . . ; . . . . . . . . . . . . . . . . . . 13
 RECOMMENDATIONS.                                                                                                                                                               . .. . . . . . . . 15
 COMMENTS ON THE DRAFT REPORT....................................... 16
 APPENDIX.                                                                                                                    . . . . . . . . . . . . . . . . . . . . . . . . . . . 17
 A. SELECTION CRITERIA FOR KEY POSITIONS
 B. LEAD AGENCY IMPACTS
                                    INTRODUCTION



PURPOSE

The purose of this study was to conduct a qualtative user evaluation of the Cooperative Ad­
miistrative Suppon Unit (CASU) Prgram.

Overa inspetion   ai    were to: I) conduct a user assessment of CASU services in operation­
al CASUs; 2) provide the national CASU board with an overview of the CASU Prgr frm
a user or customer perspective; and 3) identify the generic strngths and weakesses that af­
fect the progr s workabilty and success. This repon was prepared at the request of the na­
tional CASU board and sta.

BACKGROUND

The CASU Progr is a Government-wide progr, sponsore by the Prsident s Council on
Management Improvement (PCMI, which operates under authority of Section 601 of the
Economy Act of 1932. Under the CASU concept, agencies in multi-tenant, federaly occupied
buildigs jointly shar in establishing and maaging an admnistrative suppon unit that
provides, on a reimburable basis, admnistrtive services commonly needed by its members.

In October 1985, as pan of a shard services initiative, the heads of the Genera Services Ad­
mitration (GSA),    the Offce of Management and Budget (OMB), and the Offce of Person­
nel Management (OPM), issued a joint memorandum to the heads of all Federa agencies
intrucing and encourgig suppon for the CASU        Prgr.
To ensur strng policy suppon at the national level, the PCMI established a CASU Progr
National Board of Dirtors. The national board determines policy and progr guidace, ap­
proves lead agencies and chaners CASUs. A national interagency sta has also ben or­
ganize to serve as a focal point for day-to-day operation of the national CASU Progr. The
sta advises the CASU board on policy and progr issues and provides tehnical assistace
in organizing and operating CASUs.

The national boar has established a prototye strcture for local CASUs which includes
policy contrl and diction frm a tenant board comprised of CASU service users or potential
users. A lead agency, selecte by the tenant boar of dictors, provides admnistrtive
management suppon to the CASU in such aras as financial management, stafmg, personnel
servces, etc. The day-today diction and management of the CASU sta is provided by a
CASU diector.

Thugh maketig and intervention by the national CASU staf, the CASU Progi recruits
Federa agencies located in a single building or cluster of buildings to become members of a
local CASU and to parcipate in its development, organization, and maagement. Recruited
CASU sites undenae a feasibilty study to determine if a CASU could successfully operate at
their site, what admnistrtive services their CASU should provide, and how a CASU could
most effectively supply these services.

Once the decision to establish a CASU has been made, its prospective members establish its
operating plans thugh a series of interagency memoradums of understading. The national
CASU boar reviews these plans and, if appropriate, grts a CASU chaner to the local site.

Cunt CASUs provide such servces as mai, moving and labor, physical fitness, shipping
and receiving, photcopyig, personal propeny management, conference and training rom
scheduling, child car, imprest fund and employee assistance progrs. These servces may
be provide diectly by the CASU staff, through shared servces argements from the lead
agency or other CASU pancipating agency or secured through private contrcts. By con­
solidatig servces, the CASUs expect to provide less expensive, more accessible, and better
qualty servces. The CASUs also expect to standaze and share admnistrative systems, ac­
celerate use of automation , and to improve maagement information systems.

Curntly, operational CASUs exist at the following locations: Anchorage, Alaska; Atlanta,
Georgia; Chicago, Dlinois; Cincinnati, Ohio; Cleveland, Ohio; Denver, Colorado; Fon Wort,
Texas; Jackson, Mississippi; Indianapolis, Indiana; Kansas City (12th Stret), Missour; Los
Angeles, Caiforna; New York City (Javits Buildig), New York; and, Seatte, Washington.
Addtionally, five CASUs have ben charred at these locations: Boston , Massachusetts;
Fresno, Calforna; Kansas City (South), Missouri; New York City (Varck Stret), New York;
and, Pittburgh, Pennsylvania.



METHODOLOGY

Ths insption is based on a mail survey, onsite strctu interviews, and review of selected
background and inormational materials provided by the national CASU staf. Our findings
ar based on the responses of 34 CASU management and governing offcials at 13 of the 14
curntly charred CASUs which were operational or projected to be operational by the end
of the second quarer of Fiscal Year (F) 1989.
                                           FINDINGS



             th
This is one of      technical report prepard in conjunction with our Executive Repon on
the CASU Progr. The Executive Report " An Assessment by Users Loal Offcials, " sum-
mazes the chief fidings of our study. The technical report provide detas on our study
fidings as they relate toth    separte aspects of the CASU Prgram This technical repon is
 'Lal Ofcial Perceptions of National Policies and Implementation. " The other two are
 User Assessment of Servces" and "User and Governing Official Perceptions of Loal
Maagement.

    LOCAL OFFICIALS GENERALLY BELIEVE CASU POLICIES, GUIELINES
    AN PROGRAM ASSUMPTIONS ARE SOUND AND WORKABLE.
    A.   WCAL OFFICIAL VIEWS SPLI ON WHETHER CONTINUED REUANCE ON
         VOLUNARY INITIATION AND PARTICIPATION IN CASUs WIU PRODUCE THE
         STEAY CASU PROGRAM GROWTH DESIRED.

         1. A slight majority (55 percent) think steady program grwth      wil result under
             volunta pancipation rules. (45 percent         disagre.


         2. Most   (12 of 13) of those   indicatig that continued reliance on volunta initia­
             tion and parcipation in CASUs      wil not
   prouce steady CASU Progr      grwt
             said moe centr diction frm the national board and staf is        nee because:
             - Many agencies cannot make a decision to pancipate in the CASU without
                regional or headquaner s approval.
             - The CASUs need more guidace for achieving operational status, i. e., not just
                in the chanering process, and in the selection of the local CASU leadership.

    There is some question in the minds of the inspection team as to whether the rate of
    growt desir by the national CASU boar and staf wil be realized. under volunta par­
    ticipation rules.

    However, a strategy of mandating CASU pancipation from the top down could lead to
    local resistace and il will. It appear the board wil need to maintain a judicious balance
    between the principle of local autonomy and the goal of program expansion.

    B.   AI WCAL OFFICIALS FAVOR MAINTAINING THE CURRENT STRONG
         EMPHASIS ON WCAL TENANT BOARD CONTROL AND FLEXIBILI
C.   LOCAL OFFICIALS FEEL STRONGLY THAT WCAL CASU PARTICIPANS
     SHOUW CONTINUE TO HAVE THE FREEDOM TO SELECT THEIR OWN LEAD
     AGENCIES.

     1.   Eighty-eight percent of officials say that local CASU pancipants                               should       con­
          tinue to select their lead agencies.

     2. The      few offcials indicatig that                  local CASU panicipants       should not
            continue to
          select their lead agencies, say that a narwer range of " best suited" agencies
          should lead the CASUs because:

          - Some agencies do not have the resources requird                            to be a lead agency.
          - Some tenant boards may not know which agency is best qualified to be the
               lead agency.
          - Some agencies may not be interested in being the lead agency, or have the
            necessar knowledge to take the lead.


D.   A MAJORIT OF LOCAL OFFICIAL AGREE WITH THE BASIC POliCIES
     GOVERNING CASU CHARTERING, ALTHOUGH THERE WERE SIGNIFICAN
     MINORI OPINIONS.
                                                                         Yes

          Requirg a minimum servce
          package of         th
                           core servces
          plus other servces                                                 50%        31%                        19%

          Prhibitig the lead agency from
          also chaing the tenant board                                       56%        28%                        16%

           Requirg that interagency
           memoradums of agrment be
           in place to govern provision
           and paymnt for CASU services                                      78%        13%

           Requirig CASU regular performance
           evaluations and fiscal audits,
           includig maitenance of discrete
           and auditable records on CASU
           operations                                                        91%
       THERE IS SOME QUESTION AMONG LOCAL OFFICIAL ABOUT WHETHER
       THE NATIONAL BOARD AND STAFF ENFORCE THESE CHARTERING
       PROVISIONS:

                                                        Yes

           Minimum servce package                       28%       22%             50%

           Lead agency not to chai
           tenant board                                 34%        31%            34%

           Memorandums of agreement
           approved before chanering                    28%       41%             31%

           Requirg performance
           evaluations and fiscal audits                34%        19%            47%

  F.     MAJORI OF                  PERCEN/) SAY THE NATIONAL
                          WCAL OFFICIAL           (84

       BOAR SHOUW NOT PROMOTE A CONSISTEN/ CASU MODEL IN
       CHARTERING PROJECTS, BUT ALW FLEXIBILI TO EXPWRE
       ALTERNATWES.

       1. A  parcularly sensitive issue is the extent sta should push local CASUs to offer
           services most liely to generate savings (photocopy, mail) versus more popular
           or convenient servces (fitness and child care centers, employee counseling) that
           users might prefer.

       2. In the rush to chaner more CASUs, it is importnt to allow potential CASUs the
           time necessar for conductig thorough, objective and carful feasibilty studies
           of candidate services and for negotiating the basic provisions, if not the formal­
           ize agrments, that wil govern provider and customer relations.

II. LOCAL OFFICIALS VIEW THE NATIONAL CASU MANAGEMENT STRUC­
  TURE AS GENERALLY EFFECTIVE, BUT THEY DESIRE SOME CHANGES.

  A.   LOCAL OFFICIAL RATE THE NATIONAL CASU BOAR AS EFFECTWE IN 1)
       SEIING SOUND POLICY,     2) OBTAINING CENTRAL MANAGEMENT AGENCY
       SUPPORT (OMB, GSA, QPM),     3) ASSURING LEAD AGENCY COMMIT MEN/
       AND CAPACIT TO MANAGE THE CASU PROJECTS, AND                    4)   PROMOTING
       AND MARKETING THE CASU PROGRAM.
     Some offcials suggest the national board can improve by:

     1. Prviding       an interagency staff large enough and properly equipped to help
         CASUs   after    they arechanere, both    before and during the tie they begin
         operations.

     2. Takg steps to assur that all field opinions, comments, plans, etc., whether pro
        or con , are sent to them (Le., board may not be gettig al field information from
        the national    sta.
     3. Workig more                          the national level to incras their
                          diectly with agencies at
         knowledge of the CASU concept so they wil provide more supportve guidace
         to their field offces.



B.   OVERA, MOST WCAL OFFICIAL ASSESS THE LEADERSHIP PROVIDED
     BY THE NATIONAL CASU STAFF AS EFFECIIVE.


                       CASU STAFF LEADERSHIP EFFECTIVENESS

                                                                       Very effective-0%

      Don
      knw-3.
            t -
      Somewhat
      ineffecive-20%




                                                                  .. Somewhat

      Numer of Responses:   Very Effective-12                          effective-6%
      Somehat efective-ll Somehat inefective-.
      Don t   knw-l.
     Several offcials suggested ways in which national CASU staff leadership can
     improve:

     1. Speialze the sta on ways to keep the CASUs running once operational (Le.,
         once the CASU is operational, . sta    often   has little furter   contact).


     2. Add more permanent staff; for instance, hampered by having too many people
         on detal. (Note: This     may have been a bigger problem in the past. Curntly
         there ar   seven permanent  CASU staff members.
      3.   Stabilze the staf with longer term      commitments so they can gain knowledge of
           overall sites and operations. Incrasing their expertse in the varous CASU
           operations would improve the staf' s abilty to bring up new sites.

      4. Prvide more suppon and nunurng to existing CASUs and give less emphasis
           to adding more and more new CASUs. Offer more practical help on operational
           issues, not just verbal encouragement.

C.    SOME NATIONAL CASU STAFF SERVICES ARE SEEN AS MORE HELPFUL
      THAN OTHERS.


      1. Marketig informtion and aids are viewed as somewhat (53 percent) to very (23
           percent) helpful.

      2. Site intervention tools and visits               very (41 percent) to somewhat
                                                 ar viewed as
           (17 percent) helpful. (However, 24 percent stated these were somewhat unhelp­
           ful. )





      3. Only 46 percent rated other staff technical assistance helpful.

D.    A SliGHT MAJORIT OF WCAL OFFICIALS HAVE NOT EXPERIENCED
      PROBLEMS WITH THE NATIONAL CASU STAFF.

      1. Fifty-seven percent say they have experienced no problems.
      2. However, 43 percent repon encountering some diffcult.es:

           a. Once the CASU is operational, thereis insuffcient national staf to respond
               to questions from the field.

           b. Lack of sufficient national sta or their extensive travel results in delayed
              responses to CASU requests for assistance.

           c. National sta have   not always fully understoo problems at the local level.
               (Note: This may have been a bigger problem in the past. Some respondents
               stated that curnt staf is more receptive to requests for assistace.

 E.   WCAL OFFICIAL PREFER THE CASU MANAGEMENT STRUCTURE TO
      REMAIN FLEXIBLE, RATHER THAN BECOMING MORE INSTITUTIONAlED
      AS THE PROGRAM EVOLVES.

      1. Most        offcials (81 percent) prefer a flexible   management strctur because   all
           CASU sites dier,       as do   the service needs of each CASU.
     2. Nineteen percent desir a more institutionalized management strctu. Their
         reasons include the need for: 1) a more permanent staff famliar with al aspects
         of the progr rather than tempora staf who are available for shon periods of
         time, and 2) better responsiveness to the specific needs and problems of opera­
         tional CASUs.

F.   LOCAL MANAGEMEN AND GOVERNING OFFICIALS BEliEVE THE
     NATIONAL BOAR AND STAFF PLA A VITAL ROLE IN HOW WELL WCAL
     CASUs WIlL SURVWE OR THRIE.

     1. Most   offcials say the nationalCASU staf is very (81 percent) to somewhat
         (10 percent) impottt   for program expansion and adding new CASUs.

     2. A majority (65 percent) say the national CASU board and sta are necessar for
        the surval of operational CASUs. (32 percent felt CASUs would surive with­
         out them.

G.   THE ADEQUACY OF NATIONAL CASU REPORTING MECHANISMS SHOUW
     BE RE-ASSESSED.

The extent of information neeed by the National sta on local CASU operations has
been an issue in the past, with some CASUs opposed to reportng more than minimal in­
formtion.

The twi) basic inormtion reportg systems now in place are the Prgram Activity Re­
pon approved by the boar in June of 1988 and CASULINK, an electronic telecommuni­
cations system, also implemented in 1988.

Severa indicators from local CASU offcials suggest the need to consider reportg    im­
provement options:

         We hear varing   responses concerning what is to be reponed, how and when,
         which perhaps indicate some confusion among local offcials.

         There is some evidence that reponig could be less ad hoc with fewer urgent up­
         dates and more periodic and systematic reponing dates.

         Many offcials (63 percent) say they do not know if curnt   reportng   mecha­
         nisms ar suffcient to satisfy the progr s needs.

         There ar some indications of problems with usage of CASULINK , Le., few offi­
         cials mentioned it or indicate using it and others noted this evolving new sys­
         tem has had problems, such as delayed response tie and/or system down time.
II. LOCAL OFFICIALS SAY CASUs FACE MANY PROBLEMS AND PITFALLS
  DURING THEIR DEVELOPMENTAL PHASE.

   A.    A MAJORIT (97 PERCENT) OF WCAL OFFICIALS SAY THE FOLWWING
         MAIN PROBLEMS CONFRONT CASUs DURING IMPLEMENTATION:

         1. Lack      of goo communications with agencies.
                (Agencies sometimes see the CASU as a threat.) (9)

         2. Lack of " clear signals "    frm their parent agencies as to whether they should par­
                ticipate in the   progr. (7)
         3. Not doing your homework before attempting to set up the CASU, and           trng
                do too much too fast. (7)

         4. Reluctace of agency         heads to give up resources or space. (4)


         5. Not enough knowledgeable people to conduct feasibility studies. (1)

   B.    BEST PRACI'CES SUGGESTED BY LOCAL OFFICIALS TO AVOID OR
         OVERCOME CASU DEVELOPMENTAL OBSTACLES INCLUDE:

          1. Establish a goo and strong marketing effon; review mareting packages frm
                 other CASUs. (1)

         2. Achieve goo communications, including identifying a priar contact at each
                 user for day-to-day operations. (12)

          3. Work with top agency offcials, Le., people that can make decisions for the agen­
                 cy regarding CASU. (2)

          4. Establish clear policies, pricing    strcture and cost   mechanisms before operations
                 begin. (2)

          5. Begin with a faily modest number of services that are needed by most of the
                 user agencies. (1)

    C.    WCAL OFFICIAL OFFER SEVERAL EXPLAATIONS OF WHY AGENCIES
          MAY CHOOSE NOT TO PARTICIPATE IN THE CASU:

          1. Don t realy understad the CASU Progr. (4)

          2. Lack      suppon frm their parnt agency. (5)
        3. Reluctat to give up control of services, space and personnel , Le., "     tur protec­
             tion. "   (9)


        4. Feel agency pancipation would not be cost        effective. (5)


        5. Don t see a need for offere services. (3)



                                                Very                         Somewhat
                                               Important                     Important

              CASU Director                       100%
              Site Facilitator                     94%
              Lead Agency                          90%                         10%
              Tenant Board Chairman                84%                         16%
              Tenant Board Member                  69%                         28%



IV. LOCAL OFFICIAS LIST SEVERAL KEYS TO SUCCESSFUL CASU IMPLE­
   MENTATION.

   The CASU diectors, lead agency heads and tenant board chaien              agr that the follow­
   ing ar very impottt factors in establishing a successful CASU.

   A.   CASU GOVERNING OFFICIAL SHOULD RECOGNIZE THE CRITICAL ROLES
        PLAED BY TOP LEADERSHIP POSITIONS AND VERY CAREFULLY SELEC/
        CANDIDATES TO FILL THEM.

        1.   Offcials say the choices of   site faciltators, tenant board chaian and members,
             the lead agency and CASU ditor are all very impottt.

        2. Ofcials list severa crteria to guide the personnel selection: for these key posi­
             tions. (See appendi A.

        3. Governing officials should                 the positive and negative impacts that
                                           tae account of
             the CASU lead agency is apt to experience. (See appendix B.

   B.   DEVEWP OPEN AND FREQUENT COMMUNICATIONS, WHICH ARE
        CRIICAL DURING START- UP.

         1. Officials say open and fruent communications between the potential CASU
              and the national CASU sta     ar either very imponant (81 percent) or somewhat
              impottt (19 percent).
        2.   All offcials say that open and frequent communications between the CASU and
             its potential users are very imponant.

   C.   SECURE A CLEAR DEMONSTRATION OF THE COMMITMENT AND SUPPORT
        OF THE NATIONAL PARENT AGENCIES OF THE LEAD AGENCY AND
        POTENTIAL USERS, WHICH 97 PERCENT OF THE OFFICIAL SAY IS VERY
        IMPORTANT.

  D.    CONDUcrTHOROUGH FEASIBILI STUDIES AND REPORTS THAT:

        1. Realisticaly assess the services to be provided and the cost savings potential;
        2. Qearly descrbe the CASU concept;
        3. Communicate the roles of all involved panes; and
        4. Result in goo marketing tools.
  E.    OBTAIN THE STRONG BACKING AND SUPPORT OF THE NATIONAL CASU
        BOARD AND STAFF.

  F.    HIRE AND TRAN COMPEIENT LOCAL CASU STAFF WHO HAVE A
        CUSTOMER SERVICE ORIENTATION.

v. OVERALL, LOCAL OFFICIALS SEE THE CASU PROGRAM AS SUCCESS­
   FUL, DESPITE ITS NUMEROUS IMPLEMENTATION ISSUES.

   A.   WCAL OFFICIAL ARE SOMEWHAT UNCERTAIN ABOUT THE CURRENT
        IMPLEMENTATION PACE AND GOAL OF THE CASU PROGRAM.

        1. Many offcials (40 percent) do not know if the current pace at which CASUs
           being charered and becoming operational is about right, too slow, or too fast.
             The views of others ar divergent:

             - 34     percent say the pace is about right;
                   13 percent say the pace is too slow;
                   13 percent say the pace is too fast.

        2. A majority of offcials do not consider the national staff FY 1989 goal ofincreas­
             ing the number of chanered CASUs frm 14 to 36 as realistic and feasible:

             - 25 percent say the goal is realistic and feasible;
             - 50 percent say the goal is not realistic and feasible;
             - 25 percent don t know.
     3. Offcials split on whether the CASU sta FY 1989 goal of increasing the num­
         ber of operational CASUs from 8 to 26 is realstic and feasible:

         - 37. 5  percent say the goal is realistic and feasible;
         - 37. 5 percent say the goal is  not realistic and feasible;
         - 25 percent don t know.

     4. A majority of offcials don t know (60 percent) if it is realstic to expect the
         CASU Progr to yield cost savings in excess of $100 millon by the end of
         1992. (Only 17 percent say yes; whie 23 percent say no.

B.   LOCAL CASU OFFICIAL MADE SEVERA SUGGESTIONS TO IMPROVE CASU
     IMPLEMENTATION.

     Most suggestions focus on increasing the capabilty and expertse of the national
     CASU sta, settg realstic dates for CASU charerig and operational sta-up, fo­
     cusing more effon on helping CASUs beome operational and more national level ed­
     ucation on the benefits of CASUs.

     1. Incrase   national CASU staf knowledge of CASU intrcacies and operations.
         By doing so they would be able to get CASUs chanered more effectively; de­
         velop overall proedures; and insUr CASUs become operational before remov­
         ing national sta support (1 Dir)


     2. Keep interagency sta from using a " shotgun " approach, i.e., " go to 100 sites
         just to reach their numbers. " Staf " stuck" so much on theory that when they get
         to "practical application" they can t do it, i.e., can  ta
                                                                  about dollar and full
          tie  equivalents (F' s). As a result, some offcials asked if more national staf
         intervention might have helped at sites where CASUs are no longer functioning.

     3. Spend as much tie as neeed on gettng CASUs operational, with services that
          the parcular CASU needs, rather than to just get more CASUs chanered. Focus
          on few locations at a time.    (2 Dir 2 LA)

     4. Place more emphasis on helping sites become operational. Increase national
          sta to establish teams to help CASUs, i.e., teams with financial and personnel
          expertse   andother technical people to establish procedures to help CASUs get
          stan. To   assess  commitment and interest in the progr, the team could meet
          with the potential lead agency and users before chanering. (2 Dir 1 LA; 1 TB)

     5. Contact operational CASUs to see how they can help. Assess what has/has not
          worked at the operational sites. (2 LA; 2 TB)
     6. Assist and plan for each CASU on an individual basis, i.e., it should not be char­
         tered unti it has a realistic date for becomig operational. (1 Dir 1 LA; 1 TB)

     7. Prvide more education at agencies ' headquaners to gain their suppon for the
         CASU Progr. Demonstrate that CASUs can save money and incrase the
         avaiabilty of services. Too many individuals see the CASU Progr as a "pass­
         ing fancy" that wil disappear with the new admistration. (1 Dir 1 LA; 2 TB)

C.   MANAGING AND GOVERNING OFFICIAL SAY SEVERA IMPORTAN
     MANAGEMENT OR POllCY ISSUES CURRENTLY FACE THE CASU NATIONAL
     BOARD AND STAFF:

     1. Gettg CASUs operational, and makg sure that, once operational, they con­
        tiue to function effectively.
     2. Persuadig the new adnistrtion to suppon the program.
     3. Enlstig non- PCMI     agency suppon for the CASU concept.

     4. Determning whether CASU pancipation wil count towars the agency s OMB
         Circular A- 76 requiments.

     5. Deciding whether the space used by the CASU operation wil be classified and
         biled as joint use space or not.

     Note: These last two issues have both reently   been resolved      afatively accordg
     to the CASU 1988 Anual Repon.

D.   OVERA, WCAL OFFICIAL SAY THE CASU PROGRAM IS SUCCESSFUL
     AND HAS SIGNIFICAN COST SAVING POTENTIAL.

     1. Regarding CASU Progr priorities:
          A majority (61 percent) say the CASU Progr      should give     equal   priority to

          both cost savings and improved services.

          Thiny-six percent say that improving delivery of administrative services should
          be the top priority.

          Only one offcial states that savings should be the progr s top priority.
2. Offcials characterize as moderate to major the potential cost savings that wil be
    realzed by the individual CASUs and the overall CASU Progr over the next
    2 year.

                                       SAVINGS
                           Major       Moderate             Minor

          Locl CASU         41%           45%                14%
         Total CASU
          Program           48%           52%




3. Offcials believe the CASU Prgram is successfully achieving its two basic
    aims, although they perceive grater success   in   improving servce delivery and
    quality than in achieving cost savings.


                                         Very                       Somewhat
                                         Successful                 Successful

          Improving the Delivery
          and Qualit of Services            64%                        32%
          Achieving Significant
          Cost Savings                      25%                        64%
                                RECOMMENDATIONS


CASU Chartering Requirements

The national CASU board and staf should not enforce CASU chanering requirments so str­
           cur
gently as to     their flexibilty to explore alternatives.


Assistance in Achieving Operatonal Status

The national CASU board should:

1. Reserve more sta time for assistace to CASUs in achieving operational status after
   charring and in solving operational problems that inevitably arse during their early
   phases of development

2. Redouble their national level CASU marketing and educational effort with new admnistr­
   tion and agency offcials durng this crucial trsition period.

Implementaton Assistance

The national CASU sta should provide more CASU assistace for achieving successful
operational status and overcomig implementation problems. To this end, the staf should
develop:

1. Generic technical assistace guides to aid developing CASUs in achieving operational
   status in such aras as:

                Organizing, stang and    trning CASU personnel
                Forecasting workloads and developing. budgets,
                Alternative techniques for pricing CASU services; and


2. "How To" guidelines for implementing the most common CASU core services, such as
   mail , photocopy and personal propeny. These guidelines could include key functional re­
   quirments and specifications, "Dos and Don ts, " and commonly encountered obstacles,
   with suggestions for overcoming them.
National CASU Reportng Mechanisms

The national CASU board and staff should:

1. Re-exame and revise, as necessar, the Progr Activity Repon content and schedule to
  assur that it adequately serves the needs of the national board and sta by providing an ac­
  curate pictue of CASU services, users, operational status and problems and savings
  achievements.

2. Corrct implementation bugs in     CASULINK and promote its effective utiliztion      by local
  CASU offcias.

Selection Criteri   and Guidelines


The national sta should develop selection crteria   and guidelines to   assist local tenant boards
and lead agencies covering:

             - Desir     skis, attrbutes and experience of   CASU diectors and site
                faciltators.
                Crteria that a lead agency should satisfy.
                Guidelies for pickig the    chain and members of the local tenant board.

Natona CASU Goals
The national CASU board and sta should re-examne the feasibility of curnt CASU goals
for 1) new CASUs to be chanere, 2) CASUs to become operational, and 3) long term poten­
tial savings to be achieved. Respondent feeback and experience to date suggest these goals
may be overly optimistic.

COMMENTS ON THE DRAFT REPORT

We shar the draft of our Executive Repon on the CASU Prgram, and the three supportg
technical repons, with the CASU National Board of Directors and the CASU national sta.
They addssed their comments to the reommendations in the Executive Repon since these
are compiled from our the supportng technical repons. They generaly agree with repon
fmdings and concur, with only minor qualifications, in all our reommendations. The full text
of their comments is included in the appendi of the Executive Repon.
                    APPENDIX



COOPERATIVE ADMIISTRATIVE SUPPORT UNIT PROGRAM

               TECHNICAL REPORT In


LOCAL OFFICIAL PERCEPTIONS OF NATIONAL POLICIES AND
                  IMPLEMENTATION
           APPENDIX A





SELECTION CRITERIA FOR KEY POSITIONS

1.   CASU Director:

     a. Goo interpersonal communicator. (11)
     b. Goo adnistrtor       with   strong fmancial and administrative background,                     and
       experience in service delivery and budget prepartion. (6)

     c. Hard worker dedicated and        committed to the CASU objective. (2)

2. Site Facilitator:

     a. Strng in communications       skils.      (8)

     b. Goo analytical     abilty. (9)


     c. Some knowledge and experience in functjonal areas that CASU wil adss, e. g., in
        settg up admstrtive units, budgeting, organizational planning and stamg. (5)


     d. Goo team    leader skils. (4)


     e. Belief in the   progr and commtment to makng it work. (4)
3. Lead Agency:

     a. Lare enough to tae     on the  CASU-related work, e. g., big enough and well equipped to
        provide the suppon needed (financial and accountig systems, personnel management,
        admistrtive and technical knowledge),     and have the full suppon of its national
        headuarrs and national CASU board. (14)

4. Tenant Board Chairman:

     a. Someone interested in seeing the progr                  work,     and        wiling and able to devote
        suffcient time to board' s   activities. (13)

     b. Someone who can effectively chair the board and provide t e .leadership needed to get
        the CASU established, Le., have goo communications and interprsonal                             skils and
        goo maagement background. (8)
5. Tenant Board Members:

    a. The tenant board should include a broad   spectrm of different size agencies. (1)

    b. Broad representation of tenant agencies that suppon the   progr, but voting rights
        should be restrcted to CASU users. (6)

    C. Members should be able to represent their agencies effectively and be able to make
       decisions for the agencies, Le., usually need to be agency heads/administrators. (7)

NOTE:     Nwners in parentheses are the nwner nf offcials providing the responses.
    APPENDIX B





LEAD AGENCY IMPACTS

LEAD AGENCY IMPACTS

1.   Positive Impacts;

     a. Satisfaction in developing a successful CASU that can provide more effective and
         effcient servces      and   save money for it, as well as for users. (7)

     b. Opportnity to bring about positive changes within the building, Le., recognition as a
         contrbutor to goo economy, effectiveness and goo management. (8)

     c. Have the most contrl over          program services   diect control over sta hirg for
                                                              and

         CASU, Le., 
       tang positions with own people (thus, knowing how they work results in
         a smoother transition). (2)

     d. In some instaces no real loss of space, staff or money. (4)



2. Negatve Impacts:

     a. Don t get money and staffing to do the extra work. Higher percentage of resoures
        initialy expended on project as compard to other agencies. Absorption of
        miscellaneous sta-up costs, e. g., travel , equipment, and supplies not charged back to
        users. At times left " holding bag" for many initial sta-up costs. (12)

         Underestiatig what           the CASU Prgram is. Initial stan-up is sometimes done without
         sufcient planning, Le., no specific guidelines ar    established for program
         implementation. (2)

     c. Have a project that don t have tota contrl over. Could end up with some servces it
        doesn t lie, but is stuck with. Prblems in making all services work for al users. (3)

     d. TlI reuired lOr management and direction of the CASU by senior agency offcials.
          (4)

 NOTE:          Numers in parentheses are the numer of offcials providing the responses.
